Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL



       MEDICARE COMPLIANCE
             REVIEW OF
      SANFORD MEDICAL CENTER
             IN FARGO
        FOR CALENDAR YEARS
           2010 AND 2011

  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Patrick J. Cogley
                                               Regional Inspector General

                                                     September 2013
                                                      A-07-12-05031
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
             at https://oig.hhs.gov/

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

Sanford Medical Center in Fargo did not fully comply with Medicare requirements for billing
inpatient and outpatient services, resulting in overpayments of approximately $65,000 over
more than 2 years.

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2011, Medicare
paid hospitals $151 billion, which represents 45 percent of all fee-for-service payments;
therefore, the Office of Inspector General must provide continual and adequate oversight of
Medicare payments to hospitals.

The objective of this review was to determine whether Sanford Medical Center in Fargo (the
Hospital) complied with Medicare requirements for billing inpatient and outpatient services on
selected claims.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned. The DRG payment is, with certain
exceptions, intended to be payment in full to the hospital for all inpatient costs associated with
the beneficiary’s stay. CMS pays for hospital outpatient services on a rate-per-service basis that
varies according to the assigned ambulatory payment classification.

The Hospital is a 583-bed acute care hospital located in Fargo, North Dakota. Medicare paid the
Hospital approximately $222 million for 16,581 inpatient and 131,474 outpatient claims for
services provided to beneficiaries during CYs 2010 and 2011 based on CMS’s National Claims
History data.

Our audit covered $3,827,949 in Medicare payments to the Hospital for 252 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of 170
inpatient and 82 outpatient claims. Of these 252 claims, 250 had dates of service in CYs 2010
and 2011. Two claims, involving replaced medical devices, had dates of service in CY 2009.

WHAT WE FOUND

The Hospital complied with Medicare billing requirements for 226 of the 252 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 26 claims, resulting in overpayments of $64,526 for CYs
2010 and 2011 (24 claims) and CY 2009 (2 claims). Specifically, 11 inpatient claims had billing
errors, resulting in overpayments of $50,640, and 15 outpatient claims had billing errors,
resulting in overpayments of $13,886. These errors occurred primarily because the Hospital did


Medicare Compliance Review of Sanford Medical Center in Fargo (A-07-12-05031)                  i
not have adequate controls to prevent the incorrect billing of Medicare claims within the selected
risk areas that contained errors.

WHAT WE RECOMMEND

We recommend that the Hospital:

    •   refund to the Medicare contractor $64,526, consisting of $50,640 in overpayments for 11
        incorrectly billed inpatient claims and $13,886 in overpayments for 15 incorrectly billed
        outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

AUDITEE COMMENTS

In written comments on our draft report, the Hospital described corrective actions that it had
taken in accordance with our recommendations. Specifically, the Hospital stated that it had
refunded the $64,526 in overpayments. The Hospital also described corrective actions that it had
taken to further enhance and strengthen its controls.




Medicare Compliance Review of Sanford Medical Center in Fargo (A-07-12-05031)                 ii
                                                    TABLE OF CONTENTS


INTRODUCTION .........................................................................................................................1

       Why We Did This Review .....................................................................................................1

      Objective ................................................................................................................................1

      Background ............................................................................................................................1
          The Medicare Program ..................................................................................................1
          Hospital Inpatient Prospective Payment System ...........................................................1
          Hospital Outpatient Prospective Payment System ........................................................1
          Hospital Claims at Risk for Incorrect Billing ................................................................2
          Medicare Requirements for Hospital Claims and Payments .........................................3
          Sanford Medical Center in Fargo ..................................................................................3

      How We Conducted This Review ..........................................................................................3

FINDINGS .....................................................................................................................................4

      Billing Errors Associated With Inpatient Claims ...................................................................4
            Incorrectly Billed Diagnosis-Related Group Codes ......................................................4
            Incorrectly Billed as Inpatient .......................................................................................4
            Incorrectly Billed as Separate Inpatient Stays ...............................................................5
            Unsupported Charges ....................................................................................................5

       Billing Errors Associated With Outpatient Claims................................................................5
            Manufacturer Credits for Replaced Medical Devices Not Reported .............................5
             Services Not Billable to Medicare.................................................................................6
             Incorrectly Billed Healthcare Common Procedure Coding System Code ....................6
             Incorrectly Billed Number of Units...............................................................................6
             Incorrectly Billed Evaluation and Management Services .............................................7

RECOMMENDATIONS ...............................................................................................................7

AUDITEE COMMENTS...............................................................................................................7

APPENDIXES

        A: Audit Scope and Methodology .......................................................................................8

        B: Results of Review by Risk Area ...................................................................................10

        C: Auditee Comments ........................................................................................................11




Medicare Compliance Review of Sanford Medical Center in Fargo (A-07-12-05031)                                                                iii
                                             INTRODUCTION

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2011, Medicare
paid hospitals $151 billion, which represents 45 percent of all fee-for-service payments;
therefore, the Office of Inspector General (OIG) must provide continual and adequate oversight
of Medicare payments to hospitals.

OBJECTIVE

Our objective was to determine whether Sanford Medical Center in Fargo (the Hospital)
complied with Medicare requirements for billing inpatient and outpatient services on selected
claims.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge, and Medicare Part B provides supplementary
medical insurance for medical and other health services, including coverage of hospital
outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays hospital costs at predetermined rates for patient discharges under the inpatient
prospective payment system (IPPS). The rates vary according to the diagnosis-related group
(DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis.
The DRG payment is, with certain exceptions, intended to be payment in full to the hospital for
all inpatient costs associated with the beneficiary’s stay. In addition to the basic prospective
payment, hospitals may be eligible for an additional payment, called an outlier payment, when
the hospital’s costs exceed certain thresholds.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS), which is effective for
services furnished on or after August 1, 2000, for hospital outpatient services. Under the OPPS,
Medicare pays for hospital outpatient services on a rate-per-service basis that varies according to
the assigned ambulatory payment classification (APC). CMS uses Healthcare Common


Medicare Compliance Review of Sanford Medical Center in Fargo (A-07-12-05031)                   1
Procedure Coding System (HCPCS) codes and descriptors to identify and group the services
within each APC group. 1 All services and items within an APC group are comparable clinically
and require comparable resources.

Hospital Claims at Risk for Incorrect Billing

Our previous work at other hospitals identified these types of claims at risk for noncompliance:

    •    inpatient claims paid in excess of charges,

    •    inpatient short stays,

    •    inpatient same-day discharges and readmissions,

    •    inpatient claims billed with high severity level DRG codes,

    •    inpatient claims with payments greater than $150,000,

    •    inpatient hospital-acquired conditions and present-on-admission indicator reporting,

    •    inpatient transfers,

    •    outpatient manufacturer credits for replaced medical devices,

    •    outpatient dental services,

    •    outpatient claims paid in excess of charges,

    •    outpatient claims billed with Doxorubicin Hydrochloride,

    •    outpatient claims billed with modifier -25,

    •    outpatient claims with payments greater than $25,000,

    •    outpatient claims billed with modifier -74, and

    •    outpatient claims billed with observation services that resulted in outlier payments.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”
We reviewed these risk areas as part of this review.




1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.

Medicare Compliance Review of Sanford Medical Center in Fargo (A-07-12-05031)                                2
Medicare Requirements for Hospital Claims and Payments

Medicare payments may not be made for items or services that “… are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Social Security Act (the Act), § 1862(a)(1)(A)). In addition, the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider (the Act, § 1833(e)).

Federal regulations state that the provider must furnish to the Medicare contractor sufficient
information to determine whether payment is due and the amount of the payment (42 CFR
§ 424.5(a)(6)).

The Medicare Claims Processing Manual (the Manual) requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No.
100-04, chapter 1, § 80.3.2.2). The Manual states that providers must use HCPCS codes for
most outpatient services (chapter 23, § 20.3).

Sanford Medical Center in Fargo

The Hospital is a 583-bed acute care hospital located in Fargo, North Dakota. Medicare paid the
Hospital approximately $222 million for 16,581 inpatient and 131,474 outpatient claims for
services provided to beneficiaries during CYs 2010 and 2011 based on CMS’s National Claims
History data.

HOW WE CONDUCTED THIS REVIEW

Our audit covered $3,827,949 in Medicare payments to the Hospital for 252 claims that we
judgmentally selected as potentially at risk for billing errors. These 252 claims consisted of 170
inpatient and 82 outpatient claims. Of these 252 claims, 250 had dates of service in CYs 2010
and 2011. Two claims, involving replaced medical devices, had dates of service in CY 2009.
We focused our review on the risk areas that we had identified as a result of previous OIG
reviews at other hospitals. We evaluated compliance with selected billing requirements but did
not use medical review to determine whether the services were medically necessary. This report
focuses on selected risk areas and does not represent an overall assessment of all claims
submitted by the Hospital for Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our scope and methodology.




Medicare Compliance Review of Sanford Medical Center in Fargo (A-07-12-05031)                    3
                                                   FINDINGS

The Hospital complied with Medicare billing requirements for 226 of the 252 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 26 claims, resulting in overpayments of $64,526 for CYs
2010 and 2011 (24 claims) and CY 2009 (2 claims). Specifically, 11 inpatient claims had billing
errors, resulting in overpayments of $50,640, and 15 outpatient claims had billing errors,
resulting in overpayments of $13,886. These errors occurred primarily because the Hospital did
not have adequate controls to prevent the incorrect billing of Medicare claims within the selected
risk areas that contained errors. For the results of our review by risk area, see Appendix B.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 11 of 170 selected inpatient claims, which resulted
in overpayments of $50,640.

Incorrectly Billed Diagnosis-Related Group Codes

Medicare payments may not be made for items or services that “… are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Act, § 1862(a)(1)(A)). The Manual, chapter 1, § 80.3.2.2, states:
“In order to be processed correctly and promptly, a bill must be completed accurately.”

For 3 out of 170 selected claims, the Hospital submitted claims to Medicare with incorrectly
coded DRG codes. Specifically, on these three claims, the Hospital billed Medicare with incorrect
diagnosis codes that resulted in the assignment of incorrect DRG codes. The Hospital attributed
these errors to coder misinterpretation of clinical documentation. As a result of these errors, the
Hospital received overpayments of $37,185.

Incorrectly Billed as Inpatient

Medicare payments may not be made for items or services that “… are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Act, § 1862(a)(1)(A)).

For 5 out of 170 selected claims, the Hospital incorrectly billed Medicare Part A for beneficiary
stays that should have been billed as outpatient or outpatient with observation services. 2 The
Hospital attributed the errors to staff members misunderstanding the process and criteria. As a
result of these errors, the Hospital received overpayments of $9,975.




2
 The Hospital may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed or adjudicated by the Medicare
administrative contractor prior to the issuance of our draft report.

Medicare Compliance Review of Sanford Medical Center in Fargo (A-07-12-05031)                                   4
Incorrectly Billed as Separate Inpatient Stays

The Manual (chapter 3, § 40.2.5) states:

        When a patient is discharged/transferred from an acute care Prospective Payment
        System (PPS) hospital and is readmitted to the same acute care PPS hospital on
        the same day for symptoms related to, or for evaluation and management of, the
        prior stay’s medical condition, hospitals shall adjust the original claim generated
        by the original stay by combining the original and subsequent stay on a single
        claim.

For 2 out of 170 selected claims, the Hospital billed Medicare separately for related discharges
and readmissions within the same day. The Hospital stated that the errors occurred because
internal controls did not call for the evaluation of all same-day readmissions. As a result of these
errors, the Hospital received overpayments of $2,995.

Unsupported Charges

Under Federal regulations, CMS provides for additional payments, beyond standard DRG
payments, to a hospital for covered inpatient hospital services furnished to a Medicare
beneficiary (42 CFR § 412.80). The Manual states: “In order to be processed correctly and
promptly, a bill must be completed accurately” (chapter 1, § 80.3.2.2). The Manual also states
that a hospital may bill only for services provided (chapter 3, § 10).

For 1 out of 170 selected claims, the Hospital incorrectly billed Medicare for unsupported
charges. The Hospital incorrectly included charges for these items in cost outlier computations,
thus creating an overpayment. The Hospital stated that this error occurred because staff did not
identify and remove these duplicate charges during review. As a result of this error, the Hospital
received an overpayment of $485.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 15 of 82 selected outpatient claims, which resulted
in overpayments of $13,886.

Manufacturer Credits for Replaced Medical Devices Not Reported

Federal regulations require a reduction in the OPPS payment for the replacement of an implanted
device if (1) the device is replaced without cost to the provider or the beneficiary, (2) the
provider receives full credit for the cost of the replaced device, or (3) the provider receives
partial credit equal to or greater than 50 percent of the cost of the replacement device (42 CFR
§ 419.45). For services furnished on or after January 1, 2007, CMS requires the provider to
report the modifier “FB” and reduced charges on a claim that includes a procedure code for the
insertion of a replacement device if the provider incurs no cost or receives full credit for the




Medicare Compliance Review of Sanford Medical Center in Fargo (A-07-12-05031)                   5
replaced device. If the provider receives a replacement device without cost from the
manufacturer, the provider must report a charge of no more than $1 for the device. 3

For 2 out of 82 selected claims, the Hospital received full credit for replaced medical devices but
did not report the “FB” modifier and reduced charges on its claims. These overpayments
occurred because the Hospital did not have adequate controls to report the appropriate modifier
and charges to reflect credits received from manufacturers. As a result of these errors, the
Hospital received overpayments of $6,638.

Services Not Billable to Medicare

Section 1862(a)(12) of the Act states: “No payment may be made under Part A or Part B for any
expenses incurred for items or services where such expenses are for services in connection with
the care, treatment, filling, removal, or replacement of teeth or structures directly supporting
teeth….”

For 8 out of 82 selected claims, the Hospital incorrectly billed Medicare for services related to
the removal of teeth. The Hospital attributed these errors to an oversight during a change to
provider-based billing in the legacy billing system. This change prevented the system from
recognizing the specific internal billing class for dental cases. Specifically, during coding
review, the charge records for these eight claims were updated to remove Medicare as the
payer. However, because of an error in the design of the system, the changes did not carry
forward to the actual claims. As a result of these errors, the Hospital received overpayments of
$4,514.

Incorrectly Billed Healthcare Common Procedure Coding System Code

The Act precludes payment to any provider of services or other person without information
necessary to determine the amount due the provider (the Act, § 1833(e)). The Manual states:
“In order to be processed correctly and promptly, a bill must be completed accurately”
(chapter 1, § 80.3.2.2).

For 1 out of 82 selected claims, the Hospital submitted the claim to Medicare with an incorrect
HCPCS code. The Hospital attributed this error to a transposition of digits resulting in an
incorrect, but valid, HCPCS code that was not identified during internal quality control checks.
As a result of this error, the Hospital received an overpayment of $2,066.

Incorrectly Billed Number of Units

The Act precludes payment to any provider of services or other person without information
necessary to determine the amount due the provider (the Act, § 1833(e)). The Manual states:
“In order to be processed correctly and promptly, a bill must be completed accurately” (chapter
1, § 80.3.2.2). The Manual also states: “It is … of great importance that hospitals billing for
[drugs] make certain that the reported units of service of the reported HCPCS code are consistent

3
 CMS provides guidance on how a provider should report no-cost and reduced-cost devices under the OPPS (CMS
Transmittal 1103, dated November 3, 2006, and the Manual, chapter 4, § 61.3).

Medicare Compliance Review of Sanford Medical Center in Fargo (A-07-12-05031)                           6
with the quantity of a drug … that was used in the care of the patient” (chapter 17, § 90.2.A). If
the provider is billing for a drug, according to the Manual, “[w]here HCPCS is required, units are
entered in multiples of the units shown in the HCPCS narrative description. For example, if the
description for the code is 50 mg, and 200 mg are provided, units are shown as 4.…” (chapter 17,
§ 70).

For 1 out of 82 selected claims, the Hospital billed Medicare for an incorrect number of units
with Doxorubicin Hydrochloride, HCPCS code J9001. Specifically, the Hospital billed for five
units when the correct amount was four. The Hospital said that it was not able to develop a
precise underlying cause for this error, explaining that it was not able to retrieve information to
support the size of the vial or provide documentation of a shortage of smaller vials. As a result
of this error, the Hospital received an overpayment of $429.

Incorrectly Billed Evaluation and Management Services

The Manual states that a Medicare contractor pays for an evaluation and management (E&M)
service that is significant, separately identifiable, and above and beyond the usual preoperative
and postoperative work of the procedure (chapter 12, § 30.6.6(B)).

For 3 out of 82 selected claims, the Hospital incorrectly billed Medicare for E&M services that
were not significant, separately identifiable, and above and beyond the usual preoperative and
postoperative work of the procedure. The Hospital stated that these errors occurred due to a
combination of system and human error. Specifically, during a change in the billing system,
modifier 25 was automatically being added to the E&M code when charges other than an E&M
or clinic lab service were provided for the same patient on the same date of service. In addition,
a report meant to identify the transfer of information from one billing system to another was not
used consistently. As a result of these errors, the Hospital received overpayments of $239.

                                      RECOMMENDATIONS

We recommend that the Hospital:

    •   refund to the Medicare contractor $64,526, consisting of $50,640 in overpayments for 11
        incorrectly billed inpatient claims and $13,886 in overpayments for 15 incorrectly billed
        outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

AUDITEE COMMENTS

In written comments on our draft report, the Hospital described corrective actions that it had
taken in accordance with our recommendations. Specifically, the Hospital stated that it had
refunded the $64,526 in overpayments. The Hospital also described corrective actions that it had
taken to further enhance and strengthen its controls. The Hospital’s comments appear in their
entirety as Appendix C.



Medicare Compliance Review of Sanford Medical Center in Fargo (A-07-12-05031)                   7
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered $3,827,949 in Medicare payments to the Hospital for 252 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of 170
inpatient and 82 outpatient claims. Of these 252 claims, 250 had dates of service in CYs 2010
and 2011. Two claims, involving replaced medical devices, had dates of service in CY 2009.

We focused our review on the risk areas that we had identified as a result of previous OIG
reviews at other hospitals. We evaluated compliance with selected billing requirements but did
not use focused medical review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from the National Claims History file, but we
did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork from July 2012 to April 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
        Claims History file for the audit period;

    •   obtained information on known credits for replacement medical devices from the device
        manufacturers for CYs 2009 through 2011;

    •   used computer matching, data mining, and other data analysis techniques to identify
        claims potentially at risk for noncompliance with selected Medicare billing requirements;

    •   judgmentally selected 252 claims (170 inpatient and 82 outpatient) for detailed review;

    •   reviewed available data from CMS’s Common Working File for the selected claims to
        determine whether the claims had been cancelled or adjusted;




Medicare Compliance Review of Sanford Medical Center in Fargo (A-07-12-05031)                    8
    •   reviewed the medical record documentation provided by the Hospital to support the
        selected claims;

    •   requested that the Hospital conduct its own review of the selected claims to determine
        whether the services were billed correctly;

    •   discussed the incorrectly billed claims with Hospital personnel to determine the
        underlying causes of noncompliance with Medicare requirements;

    •   calculated the correct payments for those claims requiring adjustments; and

    •   discussed the results of our review with Hospital officials on April 3, 2013.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Compliance Review of Sanford Medical Center in Fargo (A-07-12-05031)                    9
                            APPENDIX B: RESULTS OF REVIEW BY RISK AREA
                                                                                                      Claims
                                                                                                       With
                                                               Selected            Value of            Over-        Value of Over-
                      Risk Area                                Claims          Selected Claims       payments         payments
Inpatient
Claims Paid in Excess of Charges                                          22           $383,494                 2            $35,229

Short Stays                                                               97           $415,571                 5             $9,975

Same-Day Discharges and Readmissions                                      10           $139,345                 2             $2,995
Claims Billed With High Severity Level Diagnosis-
                                                                          28           $893,235                 1             $1,956
Related Group Codes
Claims With Payments Greater Than $150,000                                 3           $480,254                 1              $485
Hospital-Acquired Conditions and Present-on-
                                                                           4           $200,806                 0                $0
Admission Indicator Reporting
Transfers                                                                  5           $110,290                 0                $0

Acute Care Transfer to Another Acute Care                                  1             $34,149                0                $0
 Inpatient Totals                                                       170          $2,657,144               11             $50,640

Outpatient
Manufacturer Credits for Replaced Medical Devices                          4             $14,706                2             $6,638

Dental Services                                                            8              $4,514                8             $4,514

Claims Paid in Excess of Charges                                          14             $92,807                1             $2,066

Claims Billed With Doxorubicin Hydrochloride                               2              $7,082                1              $429

Claims Billed With Modifier -25                                           12             $84,156                3              $239

Claims With Payments Greater Than $25,000                                 31           $935,844                 0                $0

Claims Billed With Modifier -74                                            9             $20,174                0                $0
Claims Billed With Observation Services That
                                                                           2             $11,520                0                $0
Resulted in Outlier Payments
 Outpatient Totals                                                        82         $1,170,803               15             $13,886

 Inpatient and Outpatient Totals                                        252          $3,827,947               26             $64,526
        Notice: The table above illustrates the results of our review by risk area. In it, we have organized inpatient and
        outpatient claims by the risk areas we reviewed. However, we have organized this report’s findings by the types of
        billing errors we found at the Hospital. Because we have organized the information differently, the information in
        the individual risk areas in this table does not match precisely with this report’s findings.




        Medicare Compliance Review of Sanford Medical Center in Fargo (A-07-12-05031)                                  10
                               APPENDIX C: AUDITEE COMMENTS





         August 26, 2013

         Mr. Patrick). Cogley
         Regional Inspector General for Audit Services
         Office of Audit Services, Region VII
         601 East 12th Street Room 0429
         Kansas City, MO 64106

         Report Number: A-07-12-05031

         Dear Mr. Cogley,

         On behalf of Sanford Medical Center, I am providing comments to the report entitled Medicare
         Compliance Review ofSanford Medical Center in Fargo for Calendar Years 2010 and 2011.

         Sanford Medical Center Fargo (Medical Center) strives to create a culture that promotes
         understanding and adherence to applicable federal, state and local laws and regulations. It
         commits substantial resources to support an effective compliance program with the goal of
         preventing, detecting and correcting identified issues. This includes the implementation of
         operational procedures and controls to minimize the risk of billing errors.

         The Medical Center has reviewed the recommendations in the report and has responded as
         follows:

            1) The amount of $64,526 which is identified as a n overpayment in the report has been
               refunded through correction and resubmission of involved claims to our CMS contractor.

            2) We appreciate the recognition of the strength of the Medical Center's controls to prevent
               incorrect billing which assured accurate billing in 226 out of 252 Medicare claims
               reviewed, however, note that errors did occur in 26 of the claims. To further enhance and
               strengthen the Medical Center's controls, we have taken the following steps:

                Education
                Human error accounted for 11 of the 26 billing errors noted. We have reviewed those
                errors with the individuals and departments involved with the purpose of avoiding
                recurrence.

                Medical Device Credit Process Enhancement (2)
                The process for assuring medical device credits are properly reflected on Medicare claims
                is complex. The Medical Center has strengthened their controls by identifying and
                assigning proper communication between departments to assure credits are accurately
                reflected and coded on claims.




Medicare Compliance Review of Sanford Medical Center in Fargo (A-07-12-05031)                               11
               Incorrectly billed as Separate Inpatient Stays (2)
               The errors related to same day readmission resulted from a combination of human error
               and insufficient automation to identify readmissions. The Medical Center has strengthened
               controls by identifying and assigning proper communication between departments as well
               as implementing an automated notification of review in the new electronic medical record
               (EMR) system.

               Incorrectly Billed Evaluation and Management Services (3)
               The errors related to appropriately identifying claims needing the modifier 25 were due to
               human error and inappropriate automation. In response, the Medical Center has
               discontinued the automation process that required manual intervention to remove the
               modifier.

               Services Not Billable to Medicare (8)
               The errors related to the billing of Dental Services to Medicare were due to implementation
               of a new billing system. The Medical center has corrected the system to recognize the
               correct internal billing class for Dental services.


        Sanford Medical Center takes its obligation to produce accurate bills for its services very seriously.
        As such we will continue to monitor and improve our documentation and billing processes.
        Thank you for the opportunity to review and comment on this report.

        Sincerely,

         ~t=71~~
        Dennis Millirons       (
        President
        Sanford Medical Center




Medicare Compliance Review of Sanford Medical Center in Fargo (A-07-12-05031)                                    12
